                                        SOCIAL SECURITY
MEMORANDUM

Date:      June 22, 2009                                                          Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Quick Evaluation Response: Accuracy of the Help America Vote Verification Program
           Responses (A-03-09-29115)


           The attached final Quick Response Evaluation presents the results of our review. Our
           objective was to assess the accuracy of the verification responses provided by the Help
           America Vote Verification (HAVV) program.

           If you wish to discuss the final report, please call me or have your staff contact
           Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                            Patrick P. O’Carroll, Jr.

           Attachment
   QUICK RESPONSE
    EVALUATION
Accuracy of the Help America Vote
 Verification Program Responses
           A-03-09-29115




             June 2009
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                                                           Background
OBJECTIVE
Our objective was to assess the accuracy of the verification responses provided by the
Help America Vote Verification (HAVV) program.

BACKGROUND
On October 29, 2002, the President signed Public Law Number (Pub. L. No.) 107-252, 1
the Help America Vote Act of 2002 (HAVA), which mandates that States verify the
information of newly registered voters. HAVA places certain requirements on the Social
Security Administration (SSA) for verifying information to be used in each State’s voter
registration process. Section 303 requires that each State establish a computerized
State-wide voter registration list and verify voter information with the State’s motor
vehicle authority or SSA. The States are required to first verify the driver’s license
number (if one exists) against the State’s Motor Vehicle Administration (MVA) database.
In situations where no driver’s license exists, the States are to verify the applicant’s
name, date of birth (DoB), and the last four digits of the applicant’s SSN with SSA. In
addition, SSA is required to report whether its records indicate an applicant is
deceased.

To comply with the section 303 requirement for SSA to verify information using the last
four digits of the SSN, SSA developed HAVV, an online system that allows the MVAs to
submit the required voter applicant information for verification. 2 SSA receives the
verification information from the American Association of Motor Vehicle Administrators
(AAMVA), which receives the data from each State’s MVA. 3 HAVV uses the last four
digits of the SSN to perform the initial match against the Alphident, a database that
allows SSA to search the Agency’s master file of all assigned SSNs based on name and
DoB information. Then the resulting matched record(s) are compared with SSA’s
Numident File, which is the repository of all issued SSNs. 4




1
    Pub. L. No. 107-252 § 303, 42 U.S.C. §§ 15483, 405(r)(8).
2
    See Appendix D for a flowchart of the HAVV process.
3
    The entity assists all MVAs and SSA by serving as an electronic information conduit between them.
4
  The Numident is a record of identifying information (such as name, DoB, date of death, mother’s maiden
name, etc.) provided by the applicant on his or her Application for a Social Security Number (Form SS-5)
for an original SSN card and subsequent applications for replacement SSN cards. Each record is housed
in the Numident Master File.




Accuracy of the Help America Vote Verification Program Responses (A-03-09-29115)                        1
As of December 2008, we found 46 States and territories’ MVAs had signed user
agreements with SSA to use the HAVV system when a voter registration applicant who
does not have a driver’s license number provides the last four digits of their SSN for
verification purposes. In Fiscal Year (FY) 2008, 41 of the 46 States and territories
submitted about 7.7 million verification requests. Of the 7.7 million verification requests,
SSA provided a “match” response for 5.3 million (69 percent) of the items and a
“no-match” response for 2.4 million (31 percent) of the items. While 69 percent of the
verification requests matched SSA records, SSA provided match responses that
indicated there were single and multiple matches. This occurs because the last four
digits of the SSN is not a unique identifier. A single match indicates that the input data
matched only one record in SSA’s database. However, a multiple match indicates that
two or more individuals in SSA’s records were determined to have the same
characteristics—name, DoB, and last four digits of the SSN (see Table 1 below).

                                      Table 1: HAVV Responses
                      Verification Responses                                          Counts
    Unprocessed (invalid data provided)                                                              3,824
    No-Matches                                                                                   2,366,922
    Matches                                                                                      5,323,408
    Total HAVV Transactions                                                                      7,694,154
    Types of Match Verification Responses
    Single Match Alive                                                                           5,266,119
    Single Match Deceased                                                                           56,054
    Multiple Match Alive1                                                                            1,077
    Multiple Match Deceased2                                                                             5
    Multiple Match Mixed3                                                                              153
    Subtotal:                                                                                    5,323,408
       Note 1: A multiple match alive response indicates that SSA records include two or more individuals
               with the same characteristics and they are alive.
       Note 2: A multiple match deceased response indicates that SSA records include two or more
               individuals with the same characteristics and they are deceased.
       Note 3: A multiple match mixed response indicates that SSA records include two or more
               individuals with the same characteristics but at least one individual is alive and the other is
               deceased.

OTHER VERIFICATION PROGRAMS

SSA has implemented several other verification programs that allow State agencies,
employers, and third-party submitters to match the names and SSNs of individuals in
SSA’s records. 5



5
    See Appendix E for a complete description of these verification programs.




Accuracy of the Help America Vote Verification Program Responses (A-03-09-29115)                             2
•   Social Security Online Verification (SSOLV) allows State MVAs to verify names
    and SSNs for applicants for drivers’ licenses and State identification cards. SSOLV
    transactions are routed to SSA through AAMVA. Currently, 48 States are registered
    to use SSOLV.

•   Social Security Number Verification Service (SSNVS) is an online program, with
    a batch option, that allows employers and third party submitters to verify employees’
    names and SSNs. SSNVS ensures employees’ names and SSNs match SSA
    records before their wage reports are submitted to SSA. As of March 2009, about
    167,000 employers had approximately 221,000 employees registered to use
    SSNVS.

•   E-Verify, formerly known as the Basic Pilot/Employment Eligibility Verification, is a
    joint initiative administered by the Department of Homeland Security (DHS) to verify
    the employment eligibility of newly hired employees. Participating employers
    register online with DHS to use the voluntary program. The information the
    employer submits to DHS is sent to SSA to verify the name, SSN, and DoB match
    SSA’s records. SSA also provides DHS with work eligibility information based on
    data in SSA records. DHS confirms the current employment-authorization for non-
    citizens. As of December 4, 2008, more than 96,000 employers had registered to
    use E-Verify. 6




6
 United States Department of Homeland Security Office of Citizenship & Immigration Services
Ombudsman, Observations on the E-Verify Experience in Arizona & Recommended Customer Service
Enhancements, p. 3 December 22, 2008.




Accuracy of the Help America Vote Verification Program Responses (A-03-09-29115)               3
                                                             Results of Review
SSA’s HAVV program was established to assist States with verifying the accuracy of
voter information for newly registered voters. Our review found the HAVV program did
not always provide States with accurate verification responses for individuals who were
registering to vote. We determined the HAVV program had a significantly higher
no-match response rate when compared to other verification programs used by States
and employers. HAVV’s no-match response rate was 31 percent, while the no-match
response rate for other verification programs used by States and employers ranged
from 6 to 15 percent. Additionally, we determined the HAVV program did not provide
consistent verification responses to the States when the same applicant data were
entered into the program. For example, States were provided responses for at least
356 applicants that initially indicated a match response but subsequently the States
were provided a no-match response when the same data (name, SSN, DoB, and last
four digits of the SSN) were entered into the verification program. 7

We believe the high no-match response rate and the inconsistent verification responses
can be attributed to the lack of (1) a unique identifier (full SSN), (2) flexible matching
criteria, and (3) testing to assess the accuracy of the verification responses. Because of
the limitations of the matching criteria established by the legislation, the HAVV program
may indicate a no-match when a match does in fact exist in SSA records. SSA does
alert the States of some of the inherent problems in attempting verifications using only
the last four digits of an SSN. The User Agreements between the State, MVA and SSA,
state ”. . . because SSA’s enumeration records are based on a complete and unique
9 digit SSN, verification using only the last 4 digits of that number are inherently a partial
rather than the full ’9 digit‘ verification and may result in multiple positive matches or
false positive matches of information.” However, the high no-match response rate and
the inconsistent verification responses could hinder the States’ ability to determine
whether applicants should be allowed to vote.

HELP AMERICA VOTE VERIFICATION MATCHING CRITERA

Our comparison of the FY 2008 verification responses for HAVV and three other
verification programs used by the States and employers 8—SSNVS, E-Verify, and
SSOLV—showed that HAVV had a significantly higher no-match response rate (see
Table 2). The three verification systems were developed for different purposes and use
varying tolerances because they require the full nine-digit SSN for verification. HAVV,
on the other hand, does not use these same tolerances because it requires use of the
last four digits of the SSN as mandated by the legislation.



7
    See page 7 for more details about the inconsistent verification responses.
8
    See Appendix E for a description of SSA other verification programs.




Accuracy of the Help America Vote Verification Program Responses (A-03-09-29115)            4
The no-match response rate for the three other programs ranged from 6 to 15 percent,
whereas HAVV’s no-match response rate was 31 percent. Therefore, HAVV’s
no-match response rate was about two to five times higher than the no-match response
rate for the other three programs. For example, the HAVV no-match response rate was
5 times higher than the no-match response rate for SSA’s SSNVS program, which is an
SSN verification program used by employers to ensure accurate wage reporting. In
FY 2008, the no-match response rate for SSNVS was 6 percent.

There could be several factors that contribute to the higher than expected no-match
response rate for HAVV, such as individuals deliberately providing the States with
invalid information (name, DoB, last four digits of the SSN). However, another
contributing factor is the limitation of the HAVV matching criteria. As stated previously,
HAVV does not use a truly unique identifier, such as the full SSN to match voter
information to its records. In addition, the HAVV program does not allow flexibility with
matching the name and DoB to its records to compensate for typographical errors, other
common database errors, and mistakes because it does not use the full SSN. Because
of the limitations of the matching criteria established by the legislation, HAVV may be
providing a high number of false negative responses to the States, which may lead to
applicants having difficulty while registering to vote. 9

                            Table 2: Comparison of SSA Verification
                           Programs—Verification Requests (millions)
Verification                            E-
Response         SSNVS        Percent Verify1 Percent SSOLV Percent HAVV Percent
Matched             89.1          94          6.0          86         17.9          89          5.3         69
No Match             6.0           6          0.6           9          2.3          11          2.4         31
Citizenship         N/A                       0.4           6          N/A                     N/A
     Total
Transactions        95.1         100          7.0         100         20.2         100          7.7        100
Note 1:    Since E-Verify is the only verification program that includes citizenship as a verification factor,
           we separately identified the citizenship no match responses. As such, E-Verify’s total no
           match response rate is 15 percent for name, SSN, and citizenship. By comparison, E-Verify’s
           no match response rate is less that half of HAVV even though E-Verify used more verification
           factors.

Full Social Security Number

HAVV is the only SSA verification program that does not use the full SSN to perform the
match to SSA records. HAVA mandates that SSA verify the last four digits of the SSN
along with the name and DoB if the voter applicant has not been issued a driver’s
license, which is an inherent limitation because the last four digits of the SSN is not a
unique identifier. Since SSA is limited to using the last four digits of the SSN, it has to

9
 We plan to conduct a separate review that will focus on States’ use of the HAVV program. It will cover
actions taken by States when they received a no-match response from SSA.




Accuracy of the Help America Vote Verification Program Responses (A-03-09-29115)                             5
use two databases, Alphident and Numident, to verify the HAVV input data. However,
for SSNVS, E-Verify, and SSOLV, SSA only uses the Numident to match input data
because the full SSN is provided. For HAVV, initially SSA matches the last four digits of
the SSN against the Alphident, which is a database that contains records that allow
SSA to search its master file of all assigned SSNs using the individual’s name and DoB.
To match against the Alphident, HAVV uses a soundex code based on the last name, 10
a portion of the first name, and the month and year of birth. The resulting matched
record(s) are then compared with SSA’s Numident—the repository of all issued SSNs—
using the full first and last names.

As SSA does not receive the full SSN for verification, it is possible it will provide States
with a verification response that indicates more than one person met the criteria.
According to SSA, this occurs because up to 40,000 numberholders possibly share
SSNs that have the same last four digits, which could result in duplicate matches for the
HAVV program. For example, in FY 2008, SSA provided about 1,200 multiple
responses to the States, which meant 2 or more individuals were determined to have
the same characteristics--name, DoB, and last four digits of the SSN (see Table 1). In
fact, for 153 of these cases, the response indicated that individuals with the same
characteristics were both alive and deceased.

Name Tolerances

The name-matching criteria for the HAVV program are more rigid than SSOLV, SSNVS,
and the E-verify verification program. We found that the other verification programs
used at least seven name tolerances to determine whether a name matches SSA’s
records, because of the inherent risk with matching information to large databases. For
example, the three programs will match based on a portion of the last name and the first
and middle initials. The name tolerances allow flexibility in matching the input data to
account for typographical errors and other mistakes that generally exist within large
databases. HAVV on the other hand, searches for exact matches on the full first and
last name, which is problematic because it does not consider possible human error (that
is, data entry errors, transpositions, and nicknames). For example, the HAVV program
would provide a no-match response for the common errors shown in Table 3 below.
However, the other three verification programs would have provided a positive match
response for the same data. We found that about 83,000 of the 2.4 million HAVV
no-match responses were provided because of errors associated with first or last
names.




10
   Soundexing is the idea of indexing information by how it sounds rather than spelled. HAVV uses the
first letter of the input last name in conjunction with the American Soundex System.




Accuracy of the Help America Vote Verification Program Responses (A-03-09-29115)                        6
                        Table 3: Example of Common Errors with Names
              Type of Error or
              Complex Name                 Voter Information           Numident Information
          Transposition                         Mary Simth                    Mary Smith
          Missing letters                       Mary Smth                     Mary Smith
          Extraneous letters                   Mary Smmith                    Mary Smith
          Nicknames                             Greg Smith                   Gregory Smith

In addition, HAVV does not recognize compound names that do not exactly match the
Numident. For example, if a compound name is reported as Mary Jones-Smith but the
Numident includes Mary Smith, HAVV would provide a no match response. However,
SSNVS, E-Verify, and SSOLV would provide a match response for the same data. We
found that about 65,000 of the 2.4 million HAVV no-match responses related to
compound names.

Date of Birth Tolerances

HAVV does not allow for variations in the DoB unlike the other three verification
programs. Under HAVV, the DoB must match SSA’s records exactly or a no-match
response is provided. 11 However, the other verification programs allow for a variation in
the DoB to receive a positive match response. For example, if the Numident showed
the DoB was January 10, 1990 and January 1, 1991 was input into the E-Verify program
by mistake, a positive match response would be provided. However, HAVV would have
provided a no-match response in this instance.

INCONSISTENT VERIFICATION RESPONSES

We found the HAVV program did not always provide consistent verification responses to
the States when the same applicant data were entered into the HAVV program. We
identified at least 356 applicants for whom HAVV initially provided a match response
and later provided a no-match response when the same data (name, SSN, DoB, and
last 4 digits of the SSN) were entered. These responses were provided to nine different
States, as shown in Figure 1. Ohio received 244 (69 percent) of the inconsistent
responses followed by Alabama with 80 inconsistent responses (22 percent).




11
     For the DoB, SSA uses only the month and year of birth as part of the matching criteria.




Accuracy of the Help America Vote Verification Program Responses (A-03-09-29115)                7
                     Figure 1: Number of Voter Applicants from Each State
                        that Received Different Verification Responses
               244
       250



       200



       150



       100                80



        50
                                  17
                                             9
                                                      2         1        1         1      1
         0
              OH        AL        IN       GA       NY        CA        UT       AZ      PA

According to SSA officials, the inconsistent verification responses occurred because of
a conversion issue that arose in the 1970s. When SSN records were converted from
computer cards to tapes in 1972, a conversion indicator was entered on records where
certain conditions existed. One of those conditions was a mismatch between the
Alphident and Numident. The mismatch could relate to instances where a Numident
record existed but an Alphident record did not or vice versa. SSA estimated there were
about 4 million records assigned the conversion indicator. During the initial
development of the HAVV program, SSA decided to provide a no-match response to the
States for the records that contained the conversion indicator.
However, in October 2007 when SSA converted the Numident from the Master Data
Access Method (MADAM) 12 to a relational database, the Alphident file ceased to exist
as a separate database and became part of the Numident. During that transition, SSA
did not copy the conversion indicators to the new system. As a result, the Agency
provided a match response to the States for the records that contained a mismatch
between the Alphident and Numident. SSA realized this error, and the conversion
indicator was reinstated by April 2008. SSA officials believed the extent of this anomaly
was minor because the time the condition existed was limited to late October 2007 to
early April 2008. In addition, they believed the potential universe of affected SSNs
marked with a conversion indicator represented about 4 million (less than 1 percent) of
the 455 million Numident records.




12
     MADAM is an in-house access method designed to access SSA's major master records.




Accuracy of the Help America Vote Verification Program Responses (A-03-09-29115)              8
TESTING LIMITATIONS

Although HAVV is the only SSN verification program that does not use the full SSN as
part of the matching criteria, SSA has not conducted any tests or studies that assessed
the accuracy of the HAVV verification responses provided to the States. The agency
has conducted integration testing with each State MVA prior to providing them access to
HAVV to ensure proper network connection. Further, the agency has conducted
internal validation testing when making any coding changes to the HAVV system. One
reason SSA did not assess the accuracy of verification responses because it did not
have the capability to submit sample data through the HAVV program. As part of our
review, we requested access to the HAVV program to submit sample data to determine
whether the high no-match response rate was appropriate. However, Agency staff
informed us that when the HAVV program was designed, the Agency did not build an
in-house test facility. Therefore, if they were to submit sample data through the HAVV
program, they would need to coordinate with 1 of the 46 States and territories registered
to use HAVV. We believe by not conducting any tests or studies to determine the
accuracy rate, the Agency does not know whether the program is providing the States a
high or low rate of false positives or false negatives. In addition, we believe the
inconsistent responses and the higher than expected no-match response rate
demonstrates that the HAVV responses were not always accurate.

FEASBILITY STUDY FOR USING SSNs FOR VOTER REGISTRATION

The Congress was interested in learning whether the verification of applicants’ data
against SSA records were appropriate for establishing the voter registration list. As part
of HAVA, the Congress had requested that the Election Assistance Commission (EAC),
a new agency created under HAVA, in consultation with SSA, determine the feasibility
and advisability of using SSNs or other information to establish voter registration.
Specifically, Section 244 (b) 13 of HAVA states,

          Not later than 18 months after the date on which section 303(a)(5) takes
          effect, the Commission, in consultation with the Commissioner of Social
          Security, shall study and report to Congress on the feasibility and advisability
          of using Social Security identification numbers or other information compiled
          by the Social Security Administration to establish voter registration or other
          election law eligibility or identification requirements, including the matching of
          relevant information specific to an individual voter, the impact of such use on
          national security issues, and whether adequate safeguards or waiver
          procedures exist to protect the privacy of an individual voter.

We found that as of May 31, 2009, the EAC had not prepared or submitted the
mandated report, which was due to the Congress in July 2005. After consulting with the
EAC and SSA, we learned that the report had not been submitted to the Congress
because the EAC had terminated a contract it awarded in 2006 to a vendor to conduct

13
     Pub. L. No. 107-252 § 244(b), 42 U.S.C. § 15384(b).




Accuracy of the Help America Vote Verification Program Responses (A-03-09-29115)               9
the feasibility study on its behalf. In late 2007, the EAC contacted SSA to request the
Agency conduct the feasibility study. In January 2008, SSA informed the EAC that it did
not believe the Congress intended for SSA to conduct the feasibility study and report.
SSA informed the EAC that it would be inappropriate for SSA to conduct this study
since Congress intended that the independent Commission conduct an objective
assessment of the use of Social Security information for elections in relation to other
issues such as national security and privacy, areas in which SSA itself would have to
rely on outside expertise. As required by HAVA, SSA did inform the EAC it would fulfill
the consultation requirement mandated by the legislation by providing the EAC with
(1) the status of State HAVA agreement execution and sample agreements, (2) HAVA
verification data for participating States and territories, (3) systematic descriptions of the
HAVA verification process, and (4) other background information for the report relevant
to SSA's role in the HAVA verification process. In November 2008, an EAC
representative informed us that to satisfy the reporting requirement for HAVA, they
expect to issue a policy memorandum to the Congress in 2009 with the assistance of
SSA. 14 We believe SSA should work with the EAC to prepare the policy memorandum
for the Congress and encourage the EAC to ensure the memorandum addresses the
limitations and potential risks (risk of providing a high rate of false positives or false
negatives to the States) of using the last four digits of the SSN to verify the identity of an
individual registering to vote.




14
  See Appendix F for concerns expressed by House committee members regarding HAVA requirements
and its impact on eligible voters.




Accuracy of the Help America Vote Verification Program Responses (A-03-09-29115)            10
                                   Matters for Consideration
Based on our review of SSA’s HAVV matching criteria and verification responses, SSA
did not always provide the States with accurate verification responses because of the
limitation of using the last four digits of the SSN to match data to its records. Since SSA
is mandated to use the last four digits of the SSN, the HAVV program provided the
States with responses that may have prevented eligible individuals from registering to
vote and allowed ineligible individuals to vote. Given that the HAVV verification
responses are used as part of the process to approve or deny an applicant’s right to
vote, SSA should consider working with the States to develop an acceptable level of
false negative or false positive verification responses for HAVV that would provide
assurance to the States of the reliability of the data.

Furthermore, SSA should continue to work with the EAC to allow the EAC to provide the
Congress with the mandated report. As part of this process, the Agency should ensure
that the EAC is aware of the limitations and potential risks (risk of providing a high rate
of false positives or false negatives to the States) of using the last four digits of the SSN
to verify the identity of an individual registering to vote.




Accuracy of the Help America Vote Verification Program Responses (A-03-09-29115)          11
                                           Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Verification Requests for Top 10 States
APPENDIX D – Help America Vote Verification Flowchart
APPENDIX E – Verification Programs
APPENDIX F – House Committee Members Concerns Regarding the Help America
             Vote Act of 2002
APPENDIX G – OIG Contacts and Staff Acknowledgments




Accuracy of the Help America Vote Verification Program Responses (A-03-09-29115)
                                                                         Appendix A

Acronyms
    AAMVA              American Association of Motor Vehicle Administrators

    BSO                Business Services Online

    DHS                Department of Homeland Security

    DoB                Date of Birth

    EAC                Election Assistance Commission

    EIN                Employer Identification Number

    EIF                Employer Identification File

    FY                 Fiscal Year

    HAVA               Help America Vote Act of 2002

    HAVV               Help America Vote Verification

    IEA                Information Exchange Agreement

    MADAM              Master Data Access Method

    MVA                Motor Vehicle Administration

    PIN                Personal Identification Number

    Pub. L. No.        Public Law Number

    SSA                Social Security Administration

    SSN                Social Security Number

    SSNVS              Social Security Number Verification Service

    SSOLV              Social Security Online Verification

    TNC                Tentative Nonconfirmation




Accuracy of the Help America Vote Verification Program Responses (A-03-09-29115)
                                                                                   Appendix B

Scope and Methodology
To accomplish our objective, we:

•   Reviewed pertinent sections of the Social Security Administration’s (SSA) policies
    and procedures as well as other relevant Federal laws and regulations.

•   Reviewed Office of the Inspector General reports, Government Accountability Office
    reports and other relevant documents.

•   Obtained and analyzed Help America Vote Verification (HAVV) transactions
    processed in Fiscal Year (FY) 2008.

•   Obtained and reviewed FY 2008 management information reports for the HAVV,
    E-Verify, Social Security Number Verification Service (SSNVS), and Social Security
    Online Verification (SSOLV).

•   Obtained and analyzed the matching criteria SSA uses for the following verification
    programs: HAVV, E-Verify, SSNVS, and SSOLV.

•   Spoke with staff from SSA and the Election Assistance Commission to gain a better
    understanding of the Help America Vote Act of 2002 requirements.

Because of time constraints, we did not review the internal controls over the HAVV
program. We conducted limited testing to determine whether the data provided were
reliable for the purpose of our review. The entities audited were the Offices of Earnings,
Enumeration and Administrative Systems within the Office of the Deputy Commissioner
for Systems and Financial Policy and Operations within the Office of the Deputy
Commissioner of Operations. We performed our review in Philadelphia, Pennsylvania,
between January and March 2009 in accordance with the President’s Council on
Integrity and Efficiency’s 1 Quality Standards for Inspections.




1
  In January 2009, the President’s Council on Integrity and Efficiency was superseded by the Council of
the Inspectors General on Integrity and Efficiency, Inspector General Reform Act of 2008, Pub. L. No.
110-409 § 7, 5 U.S.C. App. 3 § 11.




Accuracy of the Help America Vote Verification Program Responses (A-03-09-29115)
                                                                         Appendix C

Verification Requests for Top 10 States
In Fiscal Year (FY) 2008, 41 States and territories submitted about 7.7 million
verification requests for Help America Vote Verification (HAVV) program. Of the
7.7 million verification requests, the Social Security Administration (SSA) provided a
match response for 5.3 million (69 percent) and a no-match response for 2.4 million
(31 percent). The top 10 States that submitted verification requests accounted for
approximately 85 percent of the 7.7 million transactions submitted during FY 2008. We
found that Georgia submitted the most verification requests (about 2 million), and
Nevada received the highest number of no-match responses (about 716,000), which
represented 96 percent of its total verification requests, see Table 1 below.

                   Table 1: Verification Requests for Top 10 States
                                   Fiscal Year 2008
                                                                          Percent of
               State       Transactions Matches No Matches                No Matches
      1   Georgia             1,956,464 1,690,773   265,691                   14
      2   Alabama             1,037,372   910,901   123,929                   12
      3   Nevada                744,913    28,661   716,252                   96
      4   Ohio                  741,132   450,833   289,603                   39
      5   Indiana               415,517   357,477    57,887                   14
      6   California            410,777   118,409   292,324                   71
      7   North Carolina        395,155   320,297    74,797                   19
      8   New York              337,940   243,366    94,561                   28
      9   Pennsylvania          262,054   189,770    72,137                   28
     10   New Jersey            205,300   136,332    68,939                   34
          Total                 6,506,624 4,446,819          2,056,120         32




Accuracy of the Help America Vote Verification Program Responses (A-03-09-29115)
                                                                         Appendix D

Help America Vote Verification Flowchart
The Help America Vote Verification (HAVV) is an online program that allows States’
Motor Vehicle Administrations (MVA) to submit the required voter applicant information
for verification. The Social Security Administration (SSA) receives the verification
information from the American Association of Motor Vehicle Administrators (AAMVA),
which receives the data from each State’s MVA. The entity jointly serves the interests
of all MVAs and SSA by serving as an electronic information conduit between the MVAs
and SSA. HAVV uses the last four digits of the Social Security number (SSN) to
perform the initial match against the Alphident. Then, HAVV matches the first six
characters of the first name, the first eight characters of the last name, and the month
and year of the date of birth. The resulting matched record(s) are then compared with
SSA’s Numident—the repository of all issued SSNs—using the full first and last names.
Based on these matches, SSA provides verification responses to the States that
indicate the following: (1) single match alive, (2) single match deceased, (3) multiple
matches alive, (4) multiple matches deceased, (5) multiple matches mixed, (6) no
match, or (7) invalid input data, system error.



                                                      Numident




                                                      Alphident




        State MVA                AAMVA                  SSA HAVV




Accuracy of the Help America Vote Verification Program Responses (A-03-09-29115)
                                                                                        Appendix E

Verification Programs
The Social Security Administration (SSA) has implemented several verification
programs that allow State agencies, employers, and third-party submitters to match the
names and Social Security numbers (SSN) of individuals with SSA’s records. Below,
we describe (1) two verification programs offered to State Agencies-the Help America
Vote Verification (HAVV), and Social Security Online Verification (SSOLV) and (2) two
verification programs offered to employers and third-party submitters-the Social Security
Number Verification Service (SSNVS) and E-Verify

HAVV

SSA developed HAVV, which is an online program that allows States’ Motor Vehicle
Administrations (MVA) to verify new voter applicant 1 information. 2 HAVV uses the last
four digits of the SSN to perform the initial match against the Alphident. 3 Then, HAVV
matches the first six characters of the first name, the first eight characters of the last
name, and the month and year of the date of birth (DoB). The resulting matched
record(s) are then compared with SSA’s Numident—the repository of all issued SSNs—
using the full first and last names. Based on these matches, SSA provides verification
responses to the States that indicate the following: (1) single match, (2) single match
deceased, (3) multiple matches, (4) multiple matches deceased, (5) multiple mixed,
(6) no-match, or (7) unprocessed. Forty-six States have executed reimbursable Help
American Vote Act Information Exchange Agreements (IEA) with SSA.

SSOLV

SSOLV allows State MVAs to verify names and SSNs of applicants for drivers’ licenses
and State identification cards. SSOLV transactions are routed to SSA through a
nationwide MVA hub organization, known as American Association of Motor Vehicle
Administrators (AAMVA). Currently, 48 States have executed reimbursable SSOLV
IEAs with SSA.



1
    HAVV only verifies individuals who do not have a State drivers’ license or identification card.
2
  SSA receives the verification information from AAMVA, which receives the data from each State’s MVA.
SSA determined it was most appropriate for SSA to provide the required verification services by
interacting electronically with only one entity. The entity assists all MVAs and SSA by serving as an
electronic information conduit between them.
3
 The Alphident is a database that contains records that allow SSA to search its master file of all assigned
SSNs.




Accuracy of the Help America Vote Verification Program Responses (A-03-09-29115)                        E-1
SSNVS

SSNVS is an online program, with a batch option, that allows employers and third party
submitters to verify employees’ names and SSNs. The purpose of SSNVS is to ensure
employees’ names and SSNs match SSA’s records before their wage reports are
submitted to SSA. 4 Employers and third-parties must first register online at SSA’s
Business Services Online (BSO) website to use this service. Following registration,
SSA will mail an activation code, 5 which is a code needed to gain access to SSNVS,
directly to the company’s address shown in SSA’s Employer Identification File (EIF). 6
Once the registered users activate SSNVS using their personal identification number
(PIN) 7 and the activation code, they can start submitting verifications. Registered users
can:

      •   Submit up to 10 employee names and SSNs (per screen) via the online SSNVS
          and receive immediate results.
      •   Upload files containing up to 250,000 employee names and SSNs and usually
          receive verification results the next government business day. This bulk
          procedure allows employers to verify an entire payroll database or verify at one
          time the names and SSNs of a large number of newly hired workers.

SSA will return a verification code to the employer for each employee whose information
does not match SSA’s record. In addition to the verification code, SSA provides a death
indicator if the employee’s Numident 8 record includes a date of death.

E-Verify

E-Verify, formerly known as the Basic Pilot/Employment Eligibility Verification, is a
Department of Homeland Security (DHS) program whereby participating employers
verify whether newly-hired employees are authorized to work in the United States under
immigration law. SSA supports DHS in operating this program. Employers must

4
    Before June 2, 2005, SSNVS was a pilot that was restricted to a limited number of employers.
5
 The activation code is an alphanumeric code sent by SSA to the employer or registered PIN holder (if
self-employed) when access to certain services is requested. This code must be entered on the Activate
Access to BSO Service web page to enable the user to access the requested service.
6
 The EIF is an Internal Revenue Service file that contains the Employer Identification Number of a
business and the employer name and address associated with each Employer Identification Number.
7
 The PIN is a unique value issued by SSA to the applicant at registration, which must be entered to gain
access to SSNVS.
8
  The Numident is a record of identifying information (such as name, DoB, date of death, mother’s maiden
name, etc.) provided by the applicant on his or her Application for a Social Security Number (Form SS-5)
for an original SSN and subsequent applications for replacement SSN cards. Each record is housed in
the Numident Master File in SSN order.




Accuracy of the Help America Vote Verification Program Responses (A-03-09-29115)                      E-2
register with DHS to access E-Verify. Participating employers input information about
the new hire, including the new hire’s name, DoB, SSN, and whether the new hire
claims to be a U.S. citizen or work-authorized noncitizen (for noncitizens, the DHS-
issued alien or admission number is also entered), into the E-Verify program.

The information the employer submits via E-Verify is sent to SSA to verify the name,
SSN, and DoB against SSA’s Numident records. SSA also provides DHS an indication
of U.S. citizenship, as recorded in SSA records. DHS confirms the current employment-
authorization for non-citizens.

If the data input by the employer do not match the Numident, SSA sends a response to
E-Verify which, in turn, generates a message for the employer indicating there is a
discrepancy with SSA's records. This discrepancy is called an SSA Tentative
Nonconfirmation (TNC). The SSA TNC means that the information submitted by the
employer does not match SSA's records. At this stage of the process, the
nonconfirmation is tentative because the new hire may contest the SSA TNC. 9 To
contest an SSA TNC, the new hire must go to the SSA field office within 8 Federal
workdays to resolve the Numident discrepancy.




9
 An SSA TNC does not necessarily mean that the new hire is not authorized to work in the U.S. An SSA
TNC could be generated for a U.S. citizen or a work-authorized alien as well as an undocumented
worker.




Accuracy of the Help America Vote Verification Program Responses (A-03-09-29115)                 E-3
                                                                                Appendix F

House Committee Members Concerns
Regarding the Help America Vote Act of 2002
On October 28, 2008, House Judiciary Committee Chairman John Conyers, Jr., House
Administration Committee Chairman Robert Brady, and respective Subcommittee
Chairs Jerrold Nadler and Zoe Lofgren sent correspondence to each State’s Secretary
of State regarding voting issues. 1 The letters highlighted their concerns about the Help
America Vote Act (HAVA) 2 requirements and its impact on eligible voters. Specifically,
the letter stated the following.

          The Help America Vote Act (HAVA) requires states to implement statewide
          voter registration databases to ensure updated and accurate registration lists.
          Many problems exist with voter registration list maintenance, as most states
          update registration lists against change of address lists, the Department of
          Motor Vehicles records, the Social Security Administration records, and death
          and felon records, for example. Rigid matching requirements often result in
          erroneous removal of otherwise legitimate voters for clerical errors or incorrect
          information, misspellings, and hyphenated names, when processing voter
          registration data. There are reports that some of the new state registration
          systems are removing voters when discrepancies surface between their
          registration information and other official records, often because of errors
          outside voters’ control.




1
 State Preparation for the 2008 Election, Letter to the Honorable Max Maxfield, Secretary of State of
Wyoming, co-signed by John Conyers, Jr., Chairman of the Judiciary Committee; Robert Brady,
Chairman of the House Administration Committee; Jerrold Naddler, Chairman of the Subcommittee on the
Constitution, Civil Rights and Civil Liberties; and Zoe Lofgren, Chairwoman of the Subcommittee on
Elections, October 28, 2008.
2
    Pub. L. No. 107-252 § 303, 42 U.S.C. §§ 15483, 405(r)(8).




Accuracy of the Help America Vote Verification Program Responses (A-03-09-29115)                  E-1
                                                                         Appendix G

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Cylinda McCloud-Keal, Director

   Carol Madonna, Audit Manager

Acknowledgments
In addition to those named above:

   Virginia Harada, Auditor-in-Charge

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-03-09-29115.




Accuracy of the Help America Vote Verification Program Responses (A-03-09-29115)
                          DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
